    Office of Inspector General




Electronic Documents
       Program

      July 25,2007
   Audit Report No. 428
M E M O R A N D

To:       Corey Booth
          Brian Cartwright
          James Clarkson
          Diego Ruiz
          Jeff Risinger
          Sharon Sheehan
          Linda Thomsen
          Peter Uhlmann

From:     Walter Stachnik

Date:     July 25, 2007

Re:       Electronic Documents Program (Audit no. 428)


Attached is our audit report on Enforcement's Electronic Documents Program. The
report reflects the comments we received on prior drafts.

We would appreciate receiving any additional comments you have concerning this
audit and the report. I n particular, we would like to know whether you found the
audit useful. We also welcome any suggestions from you concerning how we could
improve future audits.

The courtesy and cooperation of you and your staff are greatly appreciated.

Attachment

Cc:     Greg Cobert
        Ken Hall
        Dan Lisewski
        Joan McKown
        Darlene Pryor
        David Sheldon
        Carol Smith
        David B. Smith
        Jonathan Sokobin
        Chester Spatt
        Chuck Staiger
        Karen Stewart
        David Wiederkehr

        Rick Hillman, GAO
         ELECTRONIC DOCUMENTS
               PROGRAM

                        EXECUTIVE SUMMARY
In April 2004, the Division of Enforcement (Enforcement) and the Office of
Information Technology (OIT) began a program to image electronically Enforcement's
evidentiary documents.1 We reviewed the program in 2004 (Document Imaging
System, Audit Memorandum No. 38, issued September 13, 2004). That review
identified several technical, quality control, and staffing issues. Commission
management was aware of these issues and was working to correct them.
In this follow-up evaluation, we found that significant improvements have been made
to the program to address the identified issues. Program users we surveyed were now
generally satisfied with the imaging system. We commend Enforcement and OIT for
their success i n making improvements.
We are recommending several additional improvements to the program. These
include: providing additional program guidance and user training; implementing
additional monitoring of contractor performance; and ensuring that background
investigations are appropriately completed for contract employees and that they sign
non-disclosure agreements. Also, OIT and Enforcement should consider designating
a task monitor or program manager.
Commission staff generally agreed with the report's recommendations.



 OBJECTIVES, SCOPE AND METHODOLOGY
Our objectives were to determine what improvements have been made to the
Electronic Documents program since our 2004 review, and to identify additional
improvements. We focused on the processing of evidentiary documents for the
Division of Enforcement, the primary program user.
We interviewed Commission staff, reviewed program guidance and other relevant
documentation, and surveyed program users in Enforcement and the regional
offices. The scope of our review included the coordination between contractors and
contract administrators, the process for loading electronic and paper documents into

' The term "document" refers to all evidentiary materials that the Commission receives,
regardless of whether they are in paper, electronic media or other format.


ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                                        JULY 25,2007
the imaging system, quality assurance procedures, regional office issues, internal
controls over evidentiary documents, and imaging turnaround times.
We conducted this performance evaluation from November 2006 to April 2007 in
accordance with Quality Standards for Inspections, issued in January 2005, by the
President's Council on Integrity and Efficiency and the Executive Council on
Integrity and Efficiency.



                            BACKGROUND
The Commission's Electronic Documents (EDOCS) program consists of two data
management projects: the Electronic Production Project and the National Imaging
Project. The Electronic Production Project involves the loading of evidentiary
materials from Enforcement cases (either in Headquarters or the regional offices)
into a n application called Concordance. This application allows authorized staff to
retrieve and view the documents.
The National Imaging Project provides data back-up and disaster recovery for the
program. I t provides for the removal of voluminous evidentiary documents from
Enforcement premises in Headquarters and the regional offices.
OIT, in consultation with Enforcement, manages the Electronic Documents
program. Funding for the program totaled $9.3 million and $10.5 million in fiscal
years 2006 and 2007, respectively. While Enforcement is the largest user of the
program, other Commission divisions and offices also use the service.
Three contractors help implement the program: LABAT-Anderson (LABAT), CACI
International, Inc. (CACI), and Abacus Technology (Abacus).
LABAT processes media (e.g.,CDs, DVDs, hard drives) and paper documents into
standard formats and then loads them into Concordance. Under its contract,
LABAT must load paper documents into Concordance within ten business days of
receipt, and electronic media within seven business days of receipt. Depending on
volume, LABAT has up to approximately 160 of its employees assigned to the
program.
CACI has eleven of its contractors assigned to quality assurance of LABAT'S work.
CACI contract employees follow a checklist to determine whether loaded documents
are free of errors. CACI reports any exceptions to Commission staff. In January
2007, the Commission temporarily acquired additional services through CACI to
process electronic documents, because it experienced problems with LABAT.
Abacus has one to two of its employees assigned to the program. Abacus helps to
prepare deliverables, such a s project plans and schedules, and standard operating
procedures.
Several regional offices process and load electronic and paper documents locally,
instead of sending them to Headquarters. As a result, the regional offices maintain
control of the media and can load and access the documents faster. To facilitate this
process, Headquarters has granted more server space to these regional offices upon
request.


ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                              JULY 25,2007
                              AUDIT RESULTS
The Commission has significantly improved the Electronic Documents program
since our 2004 review. The improvements include better image quality, decreased
turnaround times, reduced system delays, additional contractor and administrative
support, better electronic links to documents, fewer system outages, and elimination
of document mix-ups (mixing imaged documents from one case with those of
another). Program users whom we surveyed were now generally satisfied with the
Electronic Documents program.
During the audit, Commission staff addressed a safety hazard, improved working
conditions for LABAT contract employees and designated appropriate staff as
Contracting Officer's Technical Representatives (COTRs).
We are making several recommendations to improve the program further, as
discussed below.


WRITTEN GUIDANCE
Policy statement
The Division of Enforcement has not prepared a n overall policy statement for the
Electronic Documents program. An overall policy statement would describe in
general terms the program's objectives, goals, requirements, responsibilities, and
policies.
All of the written guidance has been prepared by contractors. Contractors could refer
to this document in defining specific procedures and work instructions.
Standard Operating Procedures
The program's contractors have prepared a number of standard operating
procedures (SOP) for the document imaging process. However, a number of these
procedures have not been finalized.
Enforcement plans to prepare an SOP for its headquarters and regional office staff.
The SOP will include Commission-specific guidelines and relevant parts of the
contractors' SOPS.
Protecting Non-Public Information
The Commission has issued guidance on safeguarding non-public information.
However, there is currently no Enforcement-wide written guidance explaining how
to protect and account for electronic documents in Concordance and original
evidentiary data, which frequently are non-public.2 A supplemental written
procedure should include the following:
        Which staff should have access to case files in Concordance;

2
  Enforcement's Forensics Branch issued written guidance on evidence handling and security
procedures, including the use of off-site secure storage facilities for protecting electronic
evidentiary data. This guidance pertains only to documents handled by the forensics branch
staff.


ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                                        JULY 25,2007
       The process for requesting and granting access to case files in Concordance;
       Procedures for sending discovery documents via e-mail;
       Preserving the authenticity of electronic data and preventing spoilage (e.g.,
       ensuring original media is not inadvertently altered);
       How to name electronic folders in Concordance to preserve anonymity and
       uniformity throughout the Commission;
       Removing Concordance access rights to staff who no longer require access
       (e.g., when staff transfer to another division or perform a detail outside of
       Enforcement);
       Password administration and protections in Concordance;
       How to document media and paper evidentiary documents received and
       provided to third parties (discussed later in report);
       Storing and mailing media and paper evidentiary documents to McLean, VA
       for processing (discussed later in report); and
       Chain of custody requirements (discussed later in report).
Correcting Errors
CACI performs a quality assurance process after LABAT loads documents into
Concordance. CACI may identify and report to Enforcement problems such as
duplicate data, missing pages, incomplete files, unsearchable data, or unindexed
databases. LABAT subsequently changes or overlays live data to remedy the
problem.
Enforcement officials told us that they notify Enforcement staff when significant
changes are made and informed us what constitutes a significant change. However,
this procedure is not in writing.
Written guidance is needed on the process for correcting errors in case documents on
Concordance, including notification to Enforcement staff assigned to the case being
corrected.
       Recommendation A
       Enforcement, in consultation with OIT and relevant contractors, should issue
       or finalize program guidance covering (1)a policy statement; (2) standard
       operating procedures; (3) protecting non-public information; and (4)
       notification to appropriate staff of error correction. Enforcement should
       establish timeframes for distributing this guidance to user offices (at
       Headquarters and the regional offices).


QUALITY ASSURANCE
Electronic Media
Loading media (e.g., CDs, DVDs, hard drives) completely and accurately into
Concordance is crucial in ensuring that Enforcement staff can access and search all
of the evidentiary documents received. Enforcement staff informed us that loading


ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                                JULY 25,2007
media completely and accurately can be very complex and typically takes two years
to master.
LABAT processes and loads media into Concordance. LABAT then conducts quality
control checks to ensure the media was loaded completely and accurately.
LABAT's draft written procedures describe its data loading and quality assurance
processes. However, we identified problems with the quality of LABAT's processing
of electronic documents. We could not determine if the problems resulted from
inadequate procedures, failure to follow procedures or a combination. I n January
2007, Enforcement temporarily discontinued LABAT's services in this area and
hired additional services through CACI. We also noted the following:
      LABAT's loading and quality assurance process has not undergone a
      verification and validation procedure to ensure standards compliance and
      consistency;
       While LABAT staff refer to a checklist when performing quality assurance
       checks on media that has been loaded into Concordance, LABAT staff are not
       required to fill out the checklist or otherwise document whether the quality
       control steps were performed. As a result, we could not determine the
       consistency and accuracy of LABAT's quality assurance process.
      LABAT does not document the types and number of files on the media nor
      does it document the types and number of files loaded into Concordance.
      Recording and comparing this information could better ensure that all media
      is completely and accurately loaded into Concordance.
      Enforcement does not have a formal procedure to oversee LABAT's loading
      and quality assurance processes.
       Recommendation B
      Enforcement should ensure that LABAT (or any contractor or Commission
      staff performing this role) consistently follows a n adequate data loading and    ,

      quality assurance procedure. This could be accomplished by:
                    Requiring LABAT's loading and quality assurance process to
                    undergo a verification and validation procedure;
                    Requiring LABAT to fill out a checklist or otherwise document
                    whether key quality assurance steps were performed and their
                    results;
                    Requiring LABAT to document the types and number of files
                    on the media and the types and number of files loaded into
                    Concordance and compare this information; and
                    Developing a formal procedure to oversee LABAT's loading and
                    quality assurance processes. This could be accomplished by
                    checking a sample of LABAT's work and performing periodic
                    audits.
While CACI performs quality assurance steps on all the data that has been loaded
into Concordance, CACI does not compare data in Concordance with data on the


ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                              JULY 25,2007
original media. As a result, CACI's quality assurance process may not identlfy data
that failed to load, nor would it identify data that displayed differently on
Concordance than on the original media. CACI's current process cannot verify
whether all data were completely and accurately loaded into Concordance.
        Recommendation C
       Enforcement should ensure that CACI compares a n adequate sample of data
       in Concordance to the original media to determine whether all data were
       completely and accurately loaded, and are displayed properly. Enforcement
       may wish to consult with OEA in determining a n adequate sample size and
       procedure.
Paper Documents
Each month, CACI selects a sample of 15 boxes of paper documents to determine
whether LABAT had completely and accurately loaded these documents into
Concordance.3 CACI compares each original document to the image in Concordance.
CACI reports any exceptions to the OIT COTR and LABAT is tasked with making
appropriate changes. The OIT COTR does not currently follow-up to ensure the
changes were made.
       Recommendation D
       OIT should ensure that LABAT corrects the exceptions reported by CACI,
       and OIT should verify the corrections.
CACI's sample of paper documents is limited to those loaded a t LABAT's McLean,
VA office, and does not include documents loaded a t Headquarters.
       Recommendation E
       Enforcement should require CACI to select its sample of paper documents
       from Headquarters, a s well as McLean. Enforcement may wish to consult
       with OEA in determining a n adequate sample size and procedure.




Document Loading
The regional offices often load electronic media into Concordance. Headquarters has
not yet issued any written procedures to the regional offices and the regional offices
are inconsistent in their loading procedures, including their quality control checks.
For example:
       The regional offices do not follow standard quality control procedures to
       ensure data quality, and do not benefit from CACI's quality assurance
       checks.
       Regional offices vary in the extent of experience they have in loading data
       into Concordance.

3
  According to Enforcement, depending on monthly volume, CACl's sample represents about
three to five percent of the volume of paper documents processed in McLean, VA.


ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                                   JULY 25,2007
       Regional offices vary in the access rights provided to their staff. Some
       restrict access to the attorneys working on a particular case, while others
       allow all Enforcement staff in the region to view case files.
       Some regional offices have inappropriately used the name of a particular case
       in the file name (which identifies the individual or company under
       investigation) rather than the case number.
       Recommendation F
       Enforcement, in consultation with OIT and the regional offices, should
       develop written procedures for data loading work done by the regional offices,
       including quality control checks. The procedures should address the issues
       raised by the bullet points above.
Submission of Documents
Some regional cases are processed by LABAT. For these cases, the regions mail
boxes of evidentiary documents to LABAT's McLean facility.
We found that some of these boxes contained the case name or details about the
company (name, address, etc.) on the box mailing label, in contrast to Enforcement's
policy. To preserve confidentiality, only the case number should appear on the box
label.
       Recommendation G
       Enforcement should remind the regional offices of the correct procedure for
       labeling boxes of evidentiary documents that are mailed to LABAT (e.g.,
       exclude or cover the case name or company's name, address, etc.).
Expertise
Several regional office staff told us they needed more Concordance training,
especially for more advanced functions. Attorneys whom we surveyed also indicated
that additional training should increase the staffs use of Concordance. Some
attorneys are presently reluctant to use Concordance because they prefer reviewing
paper documents or are not convinced of Concordance's reliability.
Litigation support specialists are the most knowledgeable of Concordance and in the
best position to provide training to Enforcement's attorneys. There are six litigation
support specialists in Headquarters and two of the eleven regional offices have their
own litigation support specialist.
In 2006, Headquarters7litigation support specialists provided a limited number of
on-site training sessions at the regional offices. Because of budgetary constraints
affecting travel, this training has been curtailed. Enforcement also provided two
web-based training sessions in 2006, but indicated that live training is more
effective.
Some regional office IT staffs provided Enforcement's attorneys with Concordance
training, although they lacked sufficient Concordance expertise.




ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                               JULY 25,2007
       Recommendation H
       Enforcement should explore ways to provide additional Concordance training
       and expertise to the regional offices. Some options include hiring additional
       litigation support specialists in the regions, contracting with a n outside firm,
       or enhancing the web-based training.


INTERNAL CONTROL OF EVlDENTlARY DOCUMENTS
Recording
Outside parties (e.g., opposing counsel) send evidentiary documents directly to
Enforcement's attorneys. The attorneys send the documents to Enforcement's
litigation support specialists who forward the documents to Commission contract
employees for processing and loading into Concordance.
Enforcement provides a training class that, among other things, instructs attorneys
to maintain on Enforcement's J: drive, a.description of evidentiary documents
received. However, Enforcement has no assurance they are doing so. Individual
attorneys use their discretion in recording documents received and deciding where to
store these records. Attorneys also use their discretion over whether to prepare and
maintain a list of documents they send to third parties (e.g., opposing counsel or
another government agency). Enforcement officials expressed particular concern
about recording practices in the regional offices.
Best practice guidelines suggest that agencies should develop a procedure to ensure
that evidentiary documents are properly preserved and protected from spoilage or
alteration. To achieve this, agencies should establish and enforce a procedure to
record evidentiary documents received from and provided to third parties.
One option is to receive all evidentiary documents in central locations (e.g., a central
location a t headquarters and each regional office) and designate staff to prepare and
preserve records outlining all documents received and sent to third parties.
While such a policy should enhance internal control, if it is implemented,
Enforcement would need to ensure that any resulting delays in providing documents
to its attorneys are mitigated. For example, Enforcement attorneys should be
provided with the contact information of the staff who receive the documents and
the staff should notify Enforcement attorneys as soon as the documents are received.
Enforcement would also need to address possible exceptions to the policy. For
example, third parties sometimes provide documents directly to Enforcement
attorneys during testimony. Enforcement would need a procedure to ensure that
such documents are recorded.
       Recommendation l
       Enforcement should develop and enforce a procedure to record and maintain
       information about evidentiary documents received fiom and sent to outside parties
       (e.g.,the type of documents, the quantity, the receipt date, and the name of the
       outside party). Enforcement should consider requiring the receipt and recording
       of all evidentiary documents in central locations.



ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                                JULY 25,2007
Chain of Custody
Best practice guidelines suggest that internal transfers of evidentiary documents
should be recorded on a chain of custody form. All persons taking possession of the
documents are to sign and date the form, to provide a trail of each person who had
custody of the documents.
This procedure would help ensure that evidence is protected and unaltered.
Additionally, it would provide the Commission with recourse if a case went to trial
and the opposing side claimed that documents had been altered.
Enforcement's Forensics Branch staff use a custody form, but other Enforcement
staff do not typically use this form.
Some Enforcement attorneys indicated that using a chain of custody form could
provide greater assurance that all documents had been loaded into Concordance.
Staff in Enforcement's Trial Unit generally believed that a chain of custody form
would be especially useful for documents that are more susceptible to alteration,
such as audio and video tapes.
This concern may be partially addressed by a new procedure called Box Document
Tracking System (BDMT), which is expected to be implemented in 2007. BDMT
involves placing a bar code label on each evidentiary document, to help determine
where it is and its current stage of production.
       Recommendation J
       Enforcement should consider whether to implement a chain of custody form,
       and if so, for which types of documents.
Forensics Program Centralization
Enforcement's Forensics Program (Program) consists of eight headquarters staff who
each have from 3-10 years of relevant experience and related certifications.
Program staff process certain electronically stored information (ESI) such a s hard
drives, in a secure lab a t headquarters, which requires special processing and
storage to maintain its authenticity and evidentiary value. This is critical in the
event of litigation.
The forensics program makes its service available to the regional offices. However,
regional office IT staff process ESI themselves. Unlike headquarters' forensic staff,
the regions do not typically maintain chain of custody records or store ESI in secure
locations, and their staff do not typically have forensics training.
Enforcement officials indicated that centralizing all forensics work a t headquarters
would be preferable to the current arrangement. Best practices suggest that
centralization improves the quality and consistency of work products, allows for
more collaboration among peers, achieves economies of scale and reduces overall
costs. To accommodate centralization, Enforcement has requested Commission
funding for a larger on-site lab, with adequate evidence storage, to accommodate
proper document preservation, increased staffing and data processing.
If the processing of forensics documents is centralized, Enforcement would need to
coordinate with the regional offices to develop a formal means to administer the
program, develop criteria to determine which ESI should be processed by


ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                               JULY 25,2007
headquarters staff, establish internal controls, turnaround times, polices and
procedures.
       Recommendation K
       Enforcement, in consultation with the regional offices and OIT, should
       consider the feasibility of implementing a larger forensics lab. If approved by
       the Commission, a larger forensics lab, with adequate evidence storage,
       should be built a t headquarters to accommodate proper document
       preservation, increased staffing, and data processing.


SLOW CONNECTIVITY
Several regional offices indicated that accessing documents from a Headquarters
server takes significantly more time than accessing documents loaded locally. OIT
and Enforcement have researched this, but have not determined the cause of this
problem. Possible solutions include:
       Allowing all the regional offices to continue to load their data onto a local
       server and check their own data for quality assurance;
       Allowing all the regional offices to continue to load their data onto a local
       server and have headquarters or CACI contract employees remotely check
       the data for quality assurance; and
       Processing, loading and performing CACI's quality assurance checks on the
       data at headquarters and then transferring the data to the regional office
       servers for staff use. (Headquarters experimented with this method and
       found that data transmissions took approximately three times longer than
       anticipated, which slowed down the network).
       Recommendation L
       OIT, in consultation with Enforcement, should continue researching
       problems related to slow connectivity to Concordance and implement a
       solution.


REMOVAL OF CLOSED CASE FILES FROM CONCORDANCE
Except for one region, Enforcement and the regional offices do not remove closed
case files from Concordance. Removal of these files would provide additional server
space. Before removing files, however, Commission staff must ensure relevant
documents are preserved in compliance with record preservation requirements. This
is a time-consuming task that Enforcement staff often do not prioritize.
Additionally, the Commission does not have agency-wide guidance on the
preservation of electronic documents. Enforcement is consulting with the Office of
General Counsel (OGC) and other relevant offices to develop appropriate guidance.




ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                                JULY 25,2007
       Recommendation M
       Enforcement, in consultation with OGC and other affected offices, should
       issue guidance on preservation of electronic records. Before or by the time
       the guidance is issued, Enforcement should require the removal of closed case
       files from Concordance and periodically audit the process to ensure
       compliance.


TURNAROUND TIMES
Currently, neither LABAT nor the Commission has a reliable way to determine
whether contract turnaround requirements (ten business days for paper, seven
business days for media) are being met. LABAT plans to implement a tracking
system for paper documents and media in 2007 (BDMT), which is expected to
address this issue.
Enforcement indicated that documents are not typically loaded into Concordance
within the prescribed time. LABAT has not sought additional compensation (as
permitted under the contract) for meeting its timeliness goals.
Enforcement and OIT are working with LABAT to decrease turnaround times.
       Recommendation N
       In consultation with OIT, Enforcement should continue its efforts to decrease
       imaging turnaround times and to track them reliably.


PERFORMANCE ISSUE
Enforcement and OIT indicated that they have identified certain performance issues
with LABAT'S work products, particularly its electronic discovery work, which
included converting native files to "TIFF" images, applying bates numbers to
electronic documents and extracting metadata from files. As a result, in January
2007, Enforcement temporarily transferred some functions from LABAT to CACI.
       Recommendation 0
       OIT, in consultation with Enforcement and the Office of Administrative
       Services (Procurement and Contracts Branch) should take appropriate action
       to address the identified performance issues with LABAT.


COTR
The Contracting Officer's Technical Representative (COTR) for the Electronic
Documents program is an OIT employee located a t the Operations Center in
Alexandria, VA.
The COTR has numerous, time-consuming responsibilities related to the contract as
well as other obligations. Additionally, Enforcement is the primary user of the
program and, like many of the program's contract employees, is located a t
Headquarters (Station Place). It may be appropriate, therefore, to designate



ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                             JULY 25,2007
someone in Enforcement as a task monitor or program manager to perform certain
tasks.
       Recommendation P
       OIT, in consultation with Enforcement and the Office of Administrative
       Services, should consider designating a task monitor or program manager in
       Enforcement or OIT to perform certain contract tasks. If designated, this
       person's responsibilities should be explicitly stated.


BACKGROUND INVESTIGATIONS
Like other Commission contractors, the contract employees working on the Electronic
Documents program are required to undergo a background investigation. They must
receive a favorable fingerprint and credit check before beginning work. The remainder of
the background investigation is completed later. The background investigation helps
ensure that contract employees do not create a security risk.
We selected a sample of 38 contract employees, consisting of 25 from LABAT, 11 from
CACI, and 2 from Abacus. We found that a background investigation had not been
conducted for 13 of the LABAT contract employees.
Twelve of the 13 contract employees had not completed the background questionnaire,
the starting point for a background investigation. An additional contract employee
completed the questionnaire, but had not signed and dated it.
The OIT COTR is responsible for beginning the background investigation process by
submitting contract employees' names and contact information to the Office of Human
Resources (OHR). OHR then sends the contract employees the background questionnaire
to complete. In the 12 cases where the questionnaires were not filled out, we did not find
evidence that the COTR had submitted the names of these contract employees to OHR.
       Recommendation Q
       OIT, in consultation with OHR, should ensure that a background
       investigation is performed for the thirteen contract employees we identified.
       (We provided the contract employees' names to Enforcement and OIT).
       Recommendation R
       OIT, in consultation with OHR and Enforcement, should develop a procedure
       to ensure that the names of contract employees for the Electronic Documents
       program are timely submitted to OHR for a background investigation.


NON-DISCLOSURE AGREEMENTS                                             -- -




In addition to undergoing a background investigation, contract employees for the
Electronic Documents program must sign a non-disclosure agreement before beginning
work. We reviewed whether the thirty-eight contract employees from our sample (see
above finding) had signed the most current version of the agreement (August 2006).




ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                                  JULY 25,2007
Signed non-disclosure agreements were available for only seven of the thirty-eight
contract employees in our sample. Moreover, only two of the seven had signed the
current version of the agreement.
       Recommendation S
       OIT should ensure that all contract employees for the Electronic Documents
       program sign the current version of the Commission's non-disclosure agreement.
       OIT may wish to designate a central location for storing the signed agreements.
       OIT should establish a procedure to ensure that future contract employees sign the
       Commission's non-disclosure agreement on a timely basis.




ELECTRONIC DOCUMENTS PROGRAM (AUDIT No 428)                                JULY 25,2007
